Ft#

6

No

IN THE
SUPREME COURT OF THE UNITED STATES

Ernest Seadin
— PETITIONER
(Your Name)

FILED
JUL 1 h 2020

vs.

Dean Williams, Director of the Colorado
Department of Corrections

OFFICE OF THE CLERK
SUPREME COURT. U S.

— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)

United States Court of Appeals for the Tenth Circuit
PETITION FOR WRIT OF CERTIORARI

(Your Name)

Ernest Seadin #44388

RECEIVED
JUL 2 3 2020

(Address)

49030 Colorado Highway 71 South
Colorado Correctional Facility
Limon, Colorado 80826
1

SUPREME^Coi fpTLn

QUESTION(S) PRESENTED

1. Is the State of Colorado, the Colorado Courts, both State and
Federal, subjecting Petitioner to a death in prison sentence by not
giving him relief from a violated plea agreement in which the State
of Colorado, Federal Government, and Petitioner all agreed to May
of 1990?
2. Has the U.S. District Court Of Colorado and the U.S. Tenth Circuit
Court of Appeals violated Petitioner’s Constitutional 14th
Amendment of equal protection of the law by ignoring court rulings
that prove Petitioner’s case, that also make his claim legit?
3. Are the Same Colorado Courts allowing Petitioner’s Constitutional
Eighth Amendment be violated by allowing the State of Colorado to
continue incarcerating beyond his expiration of sentence when
Petitioner has shown same Courts “new documentary evidence that
prove his Colorado sentence expired January 2014?
4. With no escape conviction,

Petitioner be penalized or have time

added to his sentence?

2

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RULE 33.2
Petition consists of 18 pages and 2494 words.

3

TABLE OF CONTENTS
OPININIONS BELOW

ih

JURISDICTION

pages l4&bf

CONSTITUTIOON AND STATUTORY PROVISIONS INVOLVED

------- page 8

STATEMENT OF CASE

—pages 9&10

REASON FOR GRANTING THE WRIT

pages 11&12

CONCLUSION

page

7r

INDEX TO APPENDICES
APPENDIX A—Order of dismissal-------------------------------- ---------------- page-15
Cover page; excerpt of US 10th circuit case: Fairchild v. workman,
579 f.3d, 1134 (2009)
APPENDIX B—Refusal of Rehearing

page-16

APPENDIX C—8 Exhibits; 7 “Notice of Colorado Parole Board Action”—page-17
Cover page; excerpt from Colorado Supreme Court case
Declaring them to be documentary evidence. Case No.
Cardiel v. Brittian, 833 P.2d 748 (1992).
APPENDIX D—Colorado, Crowley County letter stating Colorado’s agreement
To the plea agreement. Cover page; Colorado Revised Statute
17-22.5-101, ‘all sentences are considered one continuous
sentence’ and Colorado Revised Statute 17-22.5-401 (1),
Discharge from custody.

4

■page 18

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Fairchild v. Workman, 579 f.3d, 1134 (2009)
Cardiel v. Brittian,833 P.2d 748 (1992)------

17

STATUTES AND RULES

Colorado Revised Statuted 17-22.5-101 and 17-22.5-401 (1)----- 12 &>0

OTHER

5

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW
[X] For cases from federal courts:

tr
The opinion of the United States court of appeals appears at Appendix Apg.jj6
to
the petition and is
[ ] reported at
or, [
] has been designated for publication but is not yet reported; or, [ ]
is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or, [
] has been designated for publication but is not yet reported; or, [ ]
is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or, [
] has been designated for publication but is not yet reported; or, [ ]
is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or, [
] has been designated for publication but is not yet reported; or, [ ]
is unpublished.
1.
6

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was April 7, 2020__________ .
[ ] No petition for rehearing was timely filed in my case.
[X] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: April 24, 2020, and a copy of the order
denying rehearing appears at Appendix B page W- .
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(l).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______ .
[ ] A timely petition for rehearing was thereafter denied on the following date:
_______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

7

»
-f.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The United States 8th and 14th Constitutional Amendments.

8

STATEMENT OF THE CASE

May of 1990 Petitioner entered into a plea agreement with the Federal
Government and the State of Colorado where he was informed that he would
have a combined sentence of 30 years, both State and Federal. The State of
of-

Colorado does not take custod^etitioner to complete Colorado’s part of the
agreement. Petitioner being in Federal custody ha^ staff members call the
Colorado county involved, (Colorado Crowley County) and that county refers
the call to the Colorado Department of Corrections, who inform Petitioner
that his time is running and that he has a discharge date of January 23, 2014.
That date stayed in effect until 2012, when Petitioner was informed his
sentence was being tolled until he was in Colorado custody. Petitioner tried
through Colorado State Courts to remedy the matter, thinking it was just a
clerical error, but received no relief. 2015 Petitioner filed Federal Case No.
15-cv-00915-LTB, pro se, claiming violation of the plea agreement. The case
was denied and told he could not appeal the decision. Petitioner, not up on the
law, knew not what to do.
Petitioner, through an attorney, file a petition for a Writ of Habaes
Corpus in Denver City and County District Court of Colorado with new
evidence and a new claim. (Case No. 2018cv30099) New evidence being
“Notice of Colorado Parole Board Action” sheets. That 1/10/2018, petition
9

was denied 1/19/2018. Family members could no longer pay for attorney, so
Petitioner, pro se, appealed to the Colorado Court of Appeals, (Case No.2018
CA402) which was denied 1/31 2019. The Colorado Supreme Court denied
certiorari 6/6/19.
On June 27, 2019 Appellant filed an Application for a Writ of Habeas
Corpus making two claims. One claim was “new evidence”; the other that the
Colorado Department of Corrections (CDOC) was holding Appellant beyond
termination of his sentence without penological justification in violation of
the United States Constitutional Eighth Amendment. Appellant provided to
the District Court documentary evidence of his CDOC sentence being served.
The District Court refused to address Appellant’s two claims. Petitioner
appeal to the U.S. Tenth Circuit Court of Appeals which also refused to look
at the new evidence.

10

REASONS FOR GRANTING THE PETITION

The United States District Court of Colorado, and the United States Court
of Appeals for the 10th Circuit have allowed Petitioner to be subjected to a
violated plea agreement, in Federal case No. 15-cv-00915-LTB, Seadin v. Rick
Raemisch and M.A. Stancil.
The same Courts refused to address a new claim and new evidence (see
Appendix C) when the 10th Circuit case (see cover page Appendix A, pg 15)
allowed Petitioner to make the new claim.
The new evidence (Notice of Colorado Parole Board Action, Appendix C,
pg. 17) is documentary evidence that Petitioner’s Colorado sentence he is being
held on has expired as of January 23, 2014. (See cover page Appendix C, on the
Colorado Supreme Court declaring them to be documentary evidence).
Appendix D, page 18, is a letter showing Colorado’s part in the plea
agreement that was violated and not kept. Look at that 5 year sentence along
with Colorado Revised Statute 17-22.5-101, ‘one continuous sentence’. (Section
of statute is on cover page of Appendix D)
Last the U.S. District Court of Colorado and the 10th Circuit Court of
Appeals have allowed the State of Colorado use a Colorado Revised Statute, 1722.5-401 (1) to justify extending Petitioner’s sentence.
That part of the statute reads:
11

17-22.5-402. Discharge from custody
(1) No inmate shall be discharged from the department until he has
remained
the full term for which he was sentenced, to be computed on and after the
date upon which the sentence becomes effective and excluding any time
the inmate may have been at large by reason of escape therefrom,
unless he is pardoned or otherwise released by legal authority.

With no escape conviction, the statute does not apply towards Petitioner’s
sentence. The State of Colorado through the Colorado Department of
Corrections have extended Petitioner’s sentence in violation ot the United States
Constitutional Eighth Amendment. Jurisdictions seem to get away with using an
escape with no conviction to penalize prisoners.

12

CONCLUSION

Petitioner has produced documentary evidence that show his time is
finished. The use of a non-adjudicated escaped should not be allowed to extend
petitioner’s sentence. Petitioner’s United States Constitutional Eighth and
Fourteenth Amendments are being violated. Petitioner asks this Court to grant
his petition, and order his release. Petitioner is 73 years old and hopes this Court
will intervene before covid-19 takes him.

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Ernest Seadin

Date: July /4,2020

13

